<html>
<title> - DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR 2018</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]




 
         DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR 2018

_______________________________________________________________________

                                 HEARING

                                 BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED FIFTEENTH CONGRESS

                              FIRST SESSION

                               _________

                    SUBCOMMITTEE ON HOMELAND SECURITY

                     JOHN R. CARTER, Texas, Chairman

  JOHN ABNEY CULBERSON, Texas               LUCILLE ROYBAL-ALLARD, California
  CHARLES J. FLEISCHMANN, Tennessee         HENRY CUELLAR, Texas
  ANDY HARRIS, Maryland                     DAVID E. PRICE, North Carolina
  STEVEN M. PALAZZO, Mississippi            C. A. DUTCH RUPPERSBERGER, Maryland
  DAN NEWHOUSE, Washington
  SCOTT TAYLOR, Virginia

  

  NOTE: Under committee rules, Mr. Frelinghuysen, as chairman of the 
full committee, and Mrs. Lowey, as ranking minority member of the full 
committee, are authorized to sit as members of all subcommittees.

                Donna Shahbaz, Kris Mallard, Laura Cylke,
                    Christopher Romig, and  Dave Roth
                            Subcommitte Staff

                               __________

                                  PART 3
                                  
      OVERSIGHT OF THE FEDERAL EMERGENCY MANAGEMENT AGENCY
      
      
      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      
      
                          _____
                                                                   
  
      Printed for the use of the Committee on Appropriations

                           _____
                           
                           
                           
                           

                    U.S. GOVERNMENT PUBLISHING OFFICE
 28-201                     WASHINGTON : 2018
                            
                            
                            
                            
                            



                      COMMITTEE ON APPROPRIATIONS

                                ----------                              
             RODNEY P. FRELINGHUYSEN, New Jersey, Chairman


  HAROLD ROGERS, Kentucky \1\                NITA M. LOWEY, New York
  ROBERT B. ADERHOLT, Alabama                MARCY KAPTUR, Ohio
  KAY GRANGER, Texas                         PETER J. VISCLOSKY, Indiana
  MICHAEL K. SIMPSON, Idaho                  JOSE E. SERRANO, New York
  JOHN ABNEY CULBERSON, Texas                ROSA L. DeLAURO, Connecticut
  JOHN R. CARTER, Texas                      DAVID E. PRICE, North Carolina
  KEN CALVERT, California                    LUCILLE ROYBAL-ALLARD, California
  TOM COLE, Oklahoma                         SANFORD D. BISHOP, Jr., Georgia
  MARIO DIAZ-BALART, Florida                 BARBARA LEE, California
  CHARLES W. DENT, Pennsylvania              BETTY McCOLLUM, Minnesota
  TOM GRAVES, Georgia                        TIM RYAN, Ohio
  KEVIN YODER, Kansas                        C. A. DUTCH RUPPERSBERGER, Maryland
  STEVE WOMACK, Arkansas                     DEBBIE WASSERMAN SCHULTZ, Florida
  JEFF FORTENBERRY, Nebraska                 HENRY CUELLAR, Texas
  THOMAS J. ROONEY, Florida                  CHELLIE PINGREE, Maine
  CHARLES J. FLEISCHMANN, Tennessee          MIKE QUIGLEY, Illinois
  JAIME HERRERA BEUTLER, Washington          DEREK KILMER, Washington
  DAVID P. JOYCE, Ohio                       MATT CARTWRIGHT, Pennsylvania
  DAVID G. VALADAO, California               GRACE MENG, New York
  ANDY HARRIS, Maryland                      MARK POCAN, Wisconsin
  MARTHA ROBY, Alabama                       KATHERINE M. CLARK, Massachusetts
  MARK E. AMODEI, Nevada                     PETE AGUILAR, California
  CHRIS STEWART, Utah
  DAVID YOUNG, Iowa
  EVAN H. JENKINS, West Virginia
  STEVEN M. PALAZZO, Mississippi
  DAN NEWHOUSE, Washington
  JOHN R. MOOLENAAR, Michigan
  SCOTT TAYLOR, Virginia
  ----------
  \1\}Chairman Emeritus

    

                   Nancy Fox, Clerk and Staff Director

                                   (ii)
                                   
                                   
                                   
                                   
                                   


        DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR 2018

                              ----------                              

                                        Thursday, November 30, 2017

          OVERSIGHT OF THE FEDERAL EMERGENCY MANAGEMENT AGENCY

                                WITNESS

WILLIAM B. LONG, ADMINISTRATOR, FEDERAL EMERGENCY MANAGEMENT AGENCY, 
    U.S. DEPARTMENT OF HOMELAND SECURITY
    Mr. Carter. I call this hearing to order.
    Today we are welcoming the administrator of the Federal 
Emergency Management Agency, Mr. Brock Long. We are here to 
discuss response recovery to Hurricanes Harvey, Irma, and 
Maria, as well as the wildfires that spread across California. 
Administrator, thank you very much for being here and for 
joining us.
    The magnitude of disaster activities that we are 
experiencing this year is basically unprecedented. I want to 
thank you and the thousands of dedicated FEMA personnel who 
have deployed and who continue to work tirelessly to help 
communities and families get back on their feet in every 
instance devastating events.
    Congress has passed two emergency supplementals which have 
provided an additional $26 billion to ensure FEMA's ability to 
respond to immediate aftermath of disasters. Now is the time to 
shift focus from response to recovery. And while some of these 
efforts are already underway, there is still a very long road 
ahead.
    Today we look forward to hearing from you on how this third 
supplemental request, $23.5 billion, will enable the 
communities to start down the path, a long path, of long-term 
recovery.
    Mr. Long, before I get to you, I want to introduce Ms. 
Roybal-Allard, my ranking member who is a good friend, for any 
comments that she may have.
    Ms. Roybal-Allard. Thank you, Mr. Chairman. And good 
morning, Mr. Administrator, and welcome to your first 
appearance before the subcommittee. I wish it were not 
necessitated by the damaging hurricanes that prompted the 
administration's third emergency supplemental funding request 
in just the last few months. But we are nevertheless eager to 
spend some time with you to get your perspective on FEMA's 
response and recovery activities and the challenges that lie 
ahead.
    I know this has been a difficult time for your agency. You 
were at FEMA for only a few months when Hurricane Harvey struck 
the Gulf Coast, followed close behind by Irma and Marie. And I 
would be remiss if I did not mention the wildfires that 
devastated large swaths of California, my home State.
    Mr. Administrator, we want to help support the efforts of 
FEMA personnel, and we want to make sure that FEMA's programs 
are working well to support recovery efforts, particularly in 
Puerto Rico because of the level of devastation there and the 
fiscal challenges it was already facing.
    Again, we appreciate your joining us this morning, and I 
look forward to a productive discussion.
    Mr. Long. Thank you.
    Mr. Carter. We are also joined by the full committee 
ranking member, Mrs. Lowey.
    Mrs. Lowey, you are now recognized for any comments you 
would like to make.
    Mrs. Lowey. Thank you, Mr. Chairman. I appreciate Chairman 
Carter holding this hearing.
    Administrator Long, thank you for being here and for all 
your hard work assisting the States and U.S. territories that 
have suffered recently from natural disasters. There have been 
more than 50 major disaster declarations so far in 2017. Twenty 
of them were for disasters that occurred since your 
confirmation, including Hurricanes Harvey, Irma, and Maria.
    After Superstorm Sandy, it was very difficult to garner 
support for the disaster assistance we needed. And I remember 
that very, very clearly. There are similar concerns now about 
the adequacy of funding proposed by the administration for this 
supplemental, particularly with regard to Puerto Rico which has 
faced significant fiscal challenges for some time.
    It is my hope that today we can have a productive 
discussion about how FEMA can best help those impacted by 
Harvey, Irma, and Maria with a particular focus on how to 
assist Puerto Rico with vital repairs and improvements to its 
power system, water infrastructure, transportation system, and 
other important infrastructure.
    The traditional FEMA programs will only bring Puerto Rico 
just so far, and it will be important for us to understand what 
the limits are and what additional flexibilities might be 
helpful. For recovery beyond the scope of FEMA programs, we 
need to understand FEMA's role in determining unmet needs that 
will inform assistance from other Federal agencies.
    It simply is not acceptable to restore infrastructure and 
public facilities to predisaster conditions, especially in 
Puerto Rico which suffered unprecedented damages. We must use 
assistance funding to mitigate the impacts of future disasters 
or else we will find ourselves in this exact position in short 
order when the next hurricane blows through forcing taxpayers 
to pay more because investments were not made at an appropriate 
time. Resiliency is the only sensible path forward.
    So, Administrator Long, again, I really do want to thank 
you for being here today, and I look forward to this 
discussion.
    Thank you, Mr. Chairman.
    Mr. Carter. Thank you Mrs. Lowey.
    Mr. Culberson has requested an opening statement. Mr. 
Culberson.
    Mr. Culberson. Thank you, Mr. Chairman.
    The people of Houston and Southeast Texas suffered more 
than we have in any--many storms, in certainly my memory. We 
had over 52 inches of rain, over 150,000 homes flood, 200,000 
apartment units, a number of people are--tens of thousands of 
people in my district are living on the second floor of their 
homes with the first floor torn out, the sheetrock torn out, 
because they don't have anywhere else to go.
    All of us are immensely grateful to the work that FEMA has 
done to help the people of Houston to Southeast Texas who 
suffered from this catastrophic rain event, and to all the 
volunteers who came from all over the country. One of the 
silver linings of this storm were the people that just showed 
up spontaneously from all over the country with food, supplies, 
water. I am especially grateful to the Cajun Navy, the people 
of Louisiana who just showed up with boats and food and 
jambalaya to help pull people out of their houses. I didn't 
even know there was such as a thing as the Cajun Navy.
    We all found ourselves in Houston doing what needed to be 
done to help our neighbors and friends, and it is one of the 
many, many reasons I am so proud to represent that wonderful 
community of people who all look first to each other, to our 
family, to our neighbors, to our faith, and our State to help 
each other.
    But the Federal Government's role is essential. And, Mr. 
Long, we appreciate the work that FEMA has done. We are 
grateful for the help that you provided. But a lot more has to 
be done. And without even directly addressing the Disaster 
Relief Fund, I want to say at the outset that the Office of 
Management and Budget's request is woefully inadequate, it is 
embarrassing, it is deeply upsetting to the people of Texas to 
see that the largest housing disaster in the history of the 
United States of America, there is not one dime recommended for 
housing relief in the OMB's request.
    So we are very grateful to Speaker Ryan, to Chairman 
Frelinghuysen for opening up this process to be sure that the 
Appropriations Committee is the one that makes the decision on 
what the people of our districts and the Nation need in 
response to this hurricane. The Constitution vests that 
authority in Congress and on this committee. We always have and 
we will once again make the decision on what is necessary to 
heal the people of Texas, the people of Florida, and the people 
of Puerto Rico and the Virgin Islands from these terrible 
storms.
    I thank you, Mr. Chairman, for holding this hearing and 
look forward to working with you and my colleagues to be sure 
the people of the United States who suffered are made whole.
    Thank you.
    Mr. Carter. Thank you, Mr. Culberson.
    Administrator Long, at this time, you are recognized to 
make your statement. I would ask that you try to limit yourself 
to 5 minutes today because we have got a lot of questions that 
are going to coming your way.
    Mr. Long. Absolutely.
    Mr. Chairman, Madam Member, and members of the committee, 
thank you. It is an honor to be here. Today marks the end of 
the 2017 hurricane season, and it has been--the word 
``unprecedented'' doesn't do it justice.
    I want to start by thanking members of the committee but 
also members of Congress for quickly considering the first two 
supplementals and pushing them through. It is vital funding, 
and we are in the middle of a third request which I will get to 
here in a minute.
    I have been in office about 5 months. For 97 days, we have 
been actively responding around-the-clock. And not only to 
Harvey, Irma, Maria, as well as the California wildfires. But 
right now we are working 31 disasters across this country in 21 
different jurisdictions. My staff is tapped out. They work 
around-the-clock and bust their rear ends every day to help 
those who are in need. And we are doing the best that we can do 
in trying to move as quick as we can. This has been the longest 
activation in FEMA's history. And I have to say, I am extremely 
proud to work with the members of FEMA. And we have got a long 
way to go in the spirit of improvement.
    I am here in the spirit of improvement. I have many ideas 
that I have not had a chance to catch my breath and come to you 
with. Some of them I can do with a stroke of a pen through my 
own authority; some of them are going to require changes to the 
Stafford Act. But to put this into context, just those four 
events, Harvey to the devastating California wildfires, 
impacted 25 million people. In a 97-day time period, we put 
almost 5 million people into the Individual Assistance Program. 
To put that into context, in that short of a timeframe, that is 
greater than Sandy, Katrina, Wilma, and Rita combined. And it 
is a tenfold increase over what we did last year for the entire 
fiscal year.
    And while these statistics, I could go on where we put 
80,000 people in hotels in just Texas for Harvey alone, I could 
go on with those statistics. The Nation needs to stop, take a 
deep breath, and figure out how we collectively become more 
resilient. Not just FEMA, but it is the whole community.
    Sir, as you mentioned how do we better utilize the whole 
community from the Cajun Navy all the way to the Federal 
Emergency Management Agency? And I didn't come up here to do 
the status quo. I am ready to change the face of emergency 
management and the way that we attack our resiliency in this 
Nation, and it is going to require your help as well.
    Since August 25, we have received roughly $42 billion when 
you include not only the DRF funding but the NFIP debt 
forgiveness as well as community disaster loan funding. And now 
we are asking for $23.5 billion. This is a tremendous amount of 
money.
    Protecting the taxpayer dollars is of utmost importance as 
well as saving lives. I get it. In this third supplemental, we 
are asking for some special provisions that I need the Congress 
to consider. We need outcome-based planning, recovery planning, 
when we enter into these disasters. We are asking for Puerto 
Rico to have an integrated recovery plan with clear outcomes so 
that we are not just throwing money at recovery, we have an 
outcome in mind going into this.
    The next thing is is that I am also asking for additional 
authorities, particularly around Puerto Rico. The Stafford Act 
allows me to rebuild communities to a predisaster standard 
which would not be prudent in this situation. We are facing 
massive amounts of deferred maintenance in the infrastructure 
and antiquated infrastructure. The average age of the power 
plants is 44 years old. If you look at it globally what the 
average age of a power plant is, it is typically 18 years old, 
as I understand it.
    So when FEMA comes into this situation, I will need 
additional authorities to be able to put back Puerto Rico in a 
resilient or prudent manner so that we are not here again 
having this same committee hearing about not only Maria. But 
the real question for me is, it is time to question what is 
FEMA's role in disaster response and recovery? What can we 
adequately handle as an agency versus what the real roles and 
responsibility of the whole community should be from State to 
local governments. And let's hit the reset button, and let's 
carve out what--every level of government and the whole 
community should be responsible for.
    FEMA is never designed to be the first responder and the 
only responder in a disaster. But in many cases, that is where 
we find ourselves, and we have got to fix that problem. Doing 
so fixes the whole community issues that we face and bring the 
a level of resilience.
    I have numerous ideas starting first with recovery is too 
complex. It is too fragmented. Funding comes from too many 
different Federal agencies down to the local and State level, 
and it is too difficult to understand what you are entitled to, 
how to use this funding in concert with one another. And it 
leads to deobligations, confusion, and more frustration on your 
part, the citizens' part, and the disaster survivors' part.
    This is the time to fix those problems and streamline the 
Federal Government's support down through a local governor to 
the local level to achieve the governor and the local 
government's goals and responsibilities, not my goals and roles 
and responsibilities.
    We have to increase predisaster mitigation. You have to get 
hit to have access to billions of dollars or hundreds of 
millions of dollars of mitigation funding. That is reverse. It 
is backwards. It doesn't make sense. We need to move 404 
section money out of the Stafford Act to the blue sky day up-
front place where people can plan out mitigation strategies 
rather than having to get hit and then figure out how to do 
mitigation. It is a regressive formula. It needs to be changed.
    We have to ensure that State and local governments have 
their own ability to push out life-sustaining commodity 
distribution for water and meals. It cannot be solely on the 
shoulders of the Federal Emergency Management Agency to push 
food and water out. Every State should have a capability. Large 
cities should have their own capability. Our support should be 
designed to backfill that community, not supplant it fully.
    We have to make sure that we find low to no cost ways to 
truly implement a true culture of preparedness within our 
citizenry. We don't have it. And it is time to hit the reset 
button on how we become more resilient, not only at the citizen 
level, because citizens are the true first responder. They are 
the true first responder in an active shooter event, and they 
are when a tornado hits or when a flood occurs. We need to give 
tangible skills from CPR to how to shut off water valves to how 
to be properly insured, not only as a homeowner but as a 
business owner.
    We have to fix the NFIP business process. I run a program 
that is structurally broken every day. It goes into debt every 
time we have a major event, and I have to come ask for 
supplementals. We continue to go into debt. Katrina forced it 
into debt. Sandy forced it into debt. Harvey and Irma forced it 
into debt. And we got to fix the structure of that framework, 
and we have to ensure not only affordability but fix the 
structure. I run a program that is not financially solvent.
    I have about 100 more ideas I could share, and I look 
forward to working you. But I am here in the spirit of 
improvement. I look forward to having a fruitful discussion 
today.
    Thank you.
    [The prepared statement of Mr. Long follows:]

                      Statement of William B. Long

    Good morning, Chairman Carter, Ranking Member Roybal-
Allard, and Members of the Committee. My name is Brock Long, 
and I am the Administrator of the Federal Emergency Management 
Agency (FEMA). I would like to thank you for the opportunity to 
discuss FEMA's supplemental appropriations request before 
Congress and this hurricane season's federalresponse and 
recovery efforts.
    I have been in office for just over 5 months, and I am 
proud to be part of an agency that,works every day to help 
communities reduce the risks associated with future disasters, 
as well as to assist disaster survivors all across the country. 
In this short time, our Nation has faced four catastrophic 
disasters. Hurricane Harvey struck Texas with both strong wind 
and record setting rainfall. Then, Hurricane Irma swept through 
the Caribbean, striking the U.S. Virgin Islands, Puerto Rico, 
Georgia, and the entire state of Florida. Hurricane Maria 
followed, striking a devastating blow to the U.S. Virgin 
Islands and Puerto Rico. Weeks later, nearly two dozen large 
wildfires burned more than 200,000 acres of state and private 
land in northern California.
    These historic disasters--each historic in its own right--
have compelled FEMA to push its limits. These events have also 
required action by Congress, actions that entrust FEMA to 
coordinate effective and efficient response and recovery 
missions, to provide oversight of the taxpayers' investment in 
these activities, and to maintain a highly regarded and well 
trained cadre of employees. Today, I would like to share with 
you not only the experiences of recent months, but also the 
financial and legislative priorities that will drive a 
successful recovery.

                         2017 Hurricane Season

    FEMA works quietly, day in and day out, across the country 
responding to many disasters that do not get national 
attention. Prior to Hurricane Harvey making landfall on August 
25, 2017, FEMA had 17 Joint Field Offices working 28 
Presidentially-declared disasters. FEMA, our partner agencies 
in the federal, state, local, tribal, and territorial 
governments, in addition to vital volunteer relief 
organizations and the private sector, work in concert, with 
unity of effort, to serve the needs of disaster survivors.
    To say this hurricane season has been historic is an 
understatement. We had four hurricanes make landfall this 
season, three of which have been major hurricanes (Harvey, 
Irma, and Maria).
    Since Hurricane Harvey made landfall in Texas, the 
President has made 16 Major Disaster declarations and 14 
Emergency Declarations, while FEMA has authorized 25 Fire 
Management Assistance Grant declarations. Hurricane Irma was 
unique not only because it struck both the U.S. Virgin Islands 
and Puerto Rico, but also because it struck the entire State of 
Florida, including the Seminole Tribe of Florida. Hurricane 
Maria, following in quick succession, then struck the U.S. 
Virgin Islands and Puerto Rico, more than 1,000 nautical miles 
from the mainland United States, devastating an area with 
already fragile infrastructure and facing challenging economic 
circumstances. In a span of 25 days, FEMA and our partners 
deployed tens of thousands of personnel across 270,000 square 
miles in three different FEMA Regions.
    The impacts of these events are substantial. Roughly 25.8 
million people were affected by these three storms - eight 
percent of the entire U.S. population. As of November 13, 2017, 
more than four and a half million survivors have registered for 
FEMA assistance, more than those who registered after 
Hurricanes Katrina, Rita, Wilma and Sandy combined. FEMA's 
Individual and Households Program (IHP) has thus far approved 
more than $2 billion in disaster assistance to respond to the 
three hurricanes, and I expect this number to continue to grow. 
As of mid- November, National Flood Insurance Program (NFIP) 
policyholders filed approximately 120,000 claims, and the NFIP 
has paid over $4 billion to them.
    In just over 30 days, FEMA increased our call center 
capacity to more than 10 times our State level. Call centers 
receive registrations for FEMA's Individual Assistance program 
from survivors, and they also serve as a helpline for those 
survivors who have questions about their applications. 
Additionally, FEMA more than quadrupled our cadre of 
inspectors, who validate damages to an applicant's home and 
property. We will continue to expand these capacities each day 
for as long as the mission requires.
    FEMA alone cannot deliver assistance to this vast number of 
survivors. Unity of effort is required for disaster response 
and recovery on any scale, but especially in response to this 
historic season. When emergency managers call for unity of 
effort, we mean that all levels of government, non-profit 
organizations, private sector businesses, and survivors must 
work together, each drawing upon their unique skills and 
capabilities, to meet the needs of disaster survivors.
    State, local, tribal, and territorial governments, along 
with the residents in the affected areas, are the true first 
responders. Non-profit organizations, like those that are 
members of the National Voluntary Organizations Active in 
Disasters (NVOADs), provide crucial services to sustain lives 
while the rest of the response and recovery infrastructure can 
be established by emergency managers for longer-term needs. The 
private sector also plays a critical role in disasters, as 
businesses work to restore critical services and donate their 
time and resources in close coordination with emergency 
management personnel to help communities rebound in the wake of 
disasters. The whole community must be, and is, engaged, 
involved, and coordinated.
    For our part on the federal level, FEMA called upon not 
only the vast majority of our own workforce, but also engaged 
over 3,800 other federal employees to participate in the 
``Surge Capacity Force'', both by tapping into the Department 
of Homeland Security's existing program and expanding 
participation in that program to all Federal agencies. This is 
significant. FEMA employees come to FEMA knowing they will be 
deployed into disaster areas, work in austere conditions, and 
assist survivors. That is part of our job at FEMA. However, 
when personnel from outside FEMA volunteer for the Surge 
Capacity Force, they volunteer to leave their jobs and 
families, receive just-in-time training, and work in an 
environment that is completely unfamiliar and outside of their 
normal job responsibilities.
    I am incredibly grateful to my interagency colleagues from 
across the Federal government for supporting this important 
initiative, and for allowing their hardworking and dedicated 
personnel to support disaster survivors who have been impacted 
by these historic events. Over 22,300 members of the Federal 
workforce were deployed to Texas, Florida, the U.S. Virgin 
Islands, and Puerto Rico. This includes 13,892 staff from 
various offices of the Department of Defense, including the 
military services. We could not do this without them.
    This unprecedented hurricane season has truly tested us as 
a Nation and tested many of our assumptions about what works in 
disaster response and recovery. While each year the hurricane 
season comes to an end on November 30, the lessons from the 
response and recovery operations that we are performing this 
year, under incredibly difficult circumstances, will transform 
the field of emergency management forever.

                        The Disaster Relief Fund

    Under current law, the Disaster Relief Fund (DRF) is the 
source of the funding that enables FEMA to direct, coordinate, 
manage, and fund response, recovery, and mitigation efforts 
associated with major disasters and emergencies that receive a 
Presidential declaration pursuant to the Robert T. Stafford 
Disaster Relief and Emergency Assistance Act (Stafford Act). 
Therefore, FEMA's ability to provide essential services and 
financial assistance to overwhelmed state, local, tribal, and 
territorial governments depends on having sufficient balances 
in the DRF.
    The DRF helped fund response needs related to hurricanes 
Harvey, Irma, and Maria and will also help fund recovery 
efforts for those events. As of November 13, 2017, FEMA 
obligated approximately $13.7 billion to support response to 
and recovery from these hurricanes. Adequate funding for the 
DRF is essential to FEMA's ability to carry out its mission.
    Because FEMA had only $2 billion on hand to fund major 
disaster operations at the time Harvey struck, the Agency took 
extraordinary measures to maintain the DRF's solvency during 
the first two weeks of the incident response, including 
temporarily suspending payments for long-term recovery projects 
(a policy known as Immediate Needs Funding), and reprogramming 
a net total of $750 million from the base category of the DRF 
(which funds, among other things, emergency declarations) to 
the Majors Disaster category.
    To date, Congress has passed two supplemental 
appropriations bills that enable FEMA to continue helping 
communities respond to and recover from Harvey, Irma, and 
Maria. I am concerned, however, that use of emergency 
appropriations like those passed on September 8 and October 24 
may become the new normal due to a decline in the amount of 
funding available for natural disasters since Fiscal Year (FY) 
2015 that is projected to continue.
    Currently, Congress proactively funds the DRF through 
annual appropriations in anticipation of future disaster 
activity. This mechanism, known as the Disaster Relief 
Allowable Adjustment, or more simply the Disaster Cap, was 
successful in decreasing dependence on supplemental 
appropriations since it was put into place with the passage of 
the Budget Control Act of 2011 (BCA).
    Funding available under the Disaster Cap is recalculated 
each year based on a formula established by the BCA that in 
part utilizes a ten year average. It is important to note that 
the Nation went 11 years without a major hurricane making 
landfall, which has affected the funding available to the DRF. 
However, the Disaster Cap will continue to fall or remain flat 
over the next few years due to the good fortune of relatively 
low disaster spending between 2012 and 2016, and the fact that 
the Disaster Cap does not take into account emergency funding 
FEMA will receive in FY 2018.
    This drop in the Disaster Cap could result in constraints 
on future DRF appropriations and, consequently, insufficient 
balances in the DRF to support mission operations. This dynamic 
could lead to an increasing reliance on emergency supplemental 
appropriations to support basic disaster missions as soon as 
this fiscal year or FY 2019. We would like to work together 
with Congress to provide a fix to the mechanism that funds the 
DRF.

      Third Request for Supplemental Appropriations Related to the
                         2017 Hurricane Season

    On November 17, 2017, the President transmitted a $43.996 
billion emergency supplemental appropriations request to 
provide the resources necessary for the recovery efforts 
related to Hurricanes Harvey, Irma, and Maria. This constitutes 
the third request from the Administration as a result of the 
devastating Atlantic hurricane season. This fall, Congress has 
already provided$35.8 billion in funding and cancelled$16 
billion in NFIP debt to meet urgent emergency response needs in 
affected areas and longer-term recovery requirements. It sends 
a very clear message: We are committed to the long-term 
recovery of all impacted individuals as well as conducting this 
recovery in a fiscally responsible and prudent manner.
    While this is an FY 2018 supplemental request, it does not 
represent either a schedule or a deadline for recovery efforts. 
Providing the necessary funding and authorities requested by 
the Administration will address ongoing recovery efforts in 
Texas and Florida, as well as the medium-term response and 
recovery missions in Puerto Rico and the U.S. Virgin Islands.
    In terms of meeting FEMA's mission, the Administration's 
package includes $23.5 billion for the Disaster Relief Fund. 
This funding is critical to finance ongoing recovery and 
stabilization operations, support survivors, and support 
estimates for permanent public infrastructure work associated 
with recovery from Hurricanes Harvey and Irma as well as 
initial permanent public infrastructure work estimates for 
Hurricane Maria. This supplemental request would also allow a 
portion of the Disaster Relief Funds be made available for 
Community Disaster loans to support the operating liquidity 
needs of affected areas.
    We ask the Congress to act quickly upon this request.

                       Next Steps and Conclusion

    At FEMA, we seek constant improvement to better support 
America's disaster survivors, citizens, first responders, and 
communities. Responding to and recovering from any disaster is 
a whole community effort that relies on the strength of 
federal, state, local, and tribal governments as well as non-
governmental entities and individuals, in addition to FEMA. The 
unprecedented events of this past fall are no exception.
    The response to the 2017 hurricane season continues to 
provide me the opportunity to test the validity of many of the 
ideas I had coming into this job. We look forward to 
collaborating with Congress in the coming months to implement 
lessons learned, as well as gather any additional feedback that 
you may have. I look forward to your questions. Again, thank 
you for the opportunity to appear before the Committee today.

    Mr. Carter. Thank you. That was very spectacular. I love 
that outside-the-box thinking.
    Let me remind our panel here that we are going to be on the 
clock, and we are going to try to stick to it. I will do a 
little courtesy over but not a whole lot.
    Well, that was a blitz, and I would love to hear the other 
100 ideas you have got. And let's hope we can figure out a way 
to do those things.
    We have been--and that is--so you start off with kind of 
the big picture, and that is right where we need to start. A 
series of questions concerning the big picture. What is the 
status of FEMA at this time and the impacted States' response 
and recovery in this year's hurricanes? What do you anticipate 
your biggest challenges will be in the coming months? And how 
do you plan to address them? With more than 80 percent of 
FEMA's workforce currently deployed to support ongoing disaster 
response activities, are you concerned with FEMA's ability to 
respond if another catastrophic event occurs?
    Mr. Long. Great question.
    In regard to Harvey and Irma, we are rolling forward in the 
initial recovery and long-term recovery phases. The biggest 
challenge that face us is housing. Obviously. Congressman, you 
hit the nail on the head. There aren't enough manufactured home 
and travel trailers and, in some cases, hotels to service. And 
we are never going to be able to move fast enough to put people 
back in their homes.
    FEMA is not a housing expert, by the way. I often question 
whether or not FEMA should be in charge of disaster recovery 
housing. And that is another discussion that we should probably 
have. But the bottom line is it is on my plate. I recognize it. 
We work with it every day. Housing is tremendously different, 
not just from Texas, but the California wildfires, which is one 
of the most disturbing events I have ever been a part of in my 
career, based on the urban nature of those wildland fires. The 
housing mission is tremendously different there, because there 
is nothing to rebuild. It has been burned completely down 
versus where we have to go into Harvey, and we have to 
understand what can be rebuilt versus where we need to bring in 
manufactured homes or how we transition people out of hotels to 
other options. Rent them if you got them, apartments that may 
be available. This is the biggest issue that we face.
    In Puerto Rico, obviously it is the power. It is an 
antiquated power system that we are rapidly trying to figure 
out day in and day out on how to get in there. The complexities 
of it being an island and the logistical complexities adds to 
it. Everything that we do in Puerto Rico is hard. That is not a 
complaint. It is just a reality. It is hard. So power and 
housing is also the problem in Puerto Rico. When you are trying 
to fix homes in Puerto Rico, just simply putting a blue tarp on 
a house is not easy, because there is not a structure to 
connect it to. You have to first rebuild the structure before 
you put the blue tarp on it. And in many cases, it is trying to 
figure out who actually owns the home. Those are the issues 
that are there.
    The other thing that I recognize is we are having to 
delicately deal with billions of dollars of taxpaying money. 
One of the things that I have recognized that we have to 
improve is oversight and grants management. Grants management 
is the responsibility of the whole community, not just FEMA. We 
have got to increase the grants management oversight at the 
State, local, and subgrantee level, provide better and more 
training to how this funding works. But it goes back to the 
thing that we have to solve is the problem of fragmented 
recovery from different types of money coming from HUD or FEMA 
or Federal highway, wherever it comes from, with different 
policies, different tags, different rules. And it just sets 
everybody up for failure in the long run.
    And we never train people how to utilize the funding that 
comes down from the Federal Government in the best way 
possible. Here is what you are entitled to. Here is what your 
goals are. Let's grab the money you need. Let's put it to work 
in concert with one another in an efficient and effective 
manner. There is a lot that we have to talk about. Housing is 
going to be the most difficult mission that I have.
    Mr. Carter. Well, that was an excellent response. I am 
about to run out of time. I will try--to respond to this year's 
disaster activity. In my understanding, $23.5 billion requested 
in the supplemental addresses all disaster requirements for 
Hurricanes Harvey, Irma, but only fiscal year 2018 costs for 
Hurricane Maria.
    Why does this request only include funding in 2018 for 
Puerto Rico and the Virgin Islands? And do you plan to submit 
another supplemental in addition to support these disasters?
    Mr. Long. That is another excellent question, because we 
are performing our due diligence. It is hard to project what 
the true cost is going to be after fiscal year 2018.
    As we transition to recovery and why we are asking Puerto 
Rico to have an integrated outcome-based plan for their 
recovery effort, it helps us to project what we need. We also, 
as we get into recovery, based on what a governor may ask for, 
the different programs that are made available, when they turn 
those on, we look at trends, we look at the programs that are 
on. And we deliberately go in and try to estimate out. I think 
if we go beyond 2018, I don't think that the estimates I could 
provide you would be remotely accurate based on the work, and 
that is why we have decided to stay there.
    Mr. Carter. Thank you. Ms. Roybal-Allard.
    Ms. Roybal-Allard. Administrator Long, the administration 
has proposed giving you discretion to waive the predisaster 
condition limitation on public assistant grants for Puerto Rico 
and to fund the repair of or replacement of public facility 
components that weren't damaged if replacing them is essential 
to restoring the overall facility. Can you talk a little bit 
more about why this authority is needed in the case of Puerto 
Rico? Do you expect that it will help speed up recovery 
efforts? And did you consider extending this authority to the 
U.S. Virgin Islands as well? And if not, why not?
    Mr. Long. In regard to Puerto Rico, I am concerned that I 
don't have the authority to implement recovery in a manner that 
is needed, because where FEMA gets in trouble is when we start 
fixing issues that were not damaged as a result of the actual 
disaster. So if you take the roadway system inside Puerto Rico, 
there are plenty of deferred maintenance issues where the 
roadway system was not maintained, there were damages that were 
there before the storm. And in some cases, as a result of the 
storm passing through, the damages are exponentially increased 
because of a lack of maintenance. If I fix infrastructure that 
has not been maintained, then OIG comes back and, rightfully 
so, says, ``Hold on a minute. Is this truly the Federal 
Government's responsibility, or should this be on the backs of 
the local and the State governments?''
    But in this case with Puerto Rico, we are running into so 
many deferred maintenance issues in regards to the entire 
infrastructure and antiquated systems that I don't think you 
can put it back to a predisaster condition. Right now I am 
working under the emergency authorities that I have to prevent 
public health emergencies and future loss of life.
    But once we get into the permanent work that is required to 
actually rebuild to a higher code standard, for example, just 
putting the CONUS standard for the power grid on to Puerto Rico 
is greater than the pre-storm condition that we found the power 
grid in to begin with.
    And so this is why we are asking for those authorities. I 
need protection when it comes to putting Puerto Rico back in a 
more resilient manner so that we are not sitting here again 
having this discussion.
    Ms. Roybal-Allard. If you get that authority, how will you 
decide when to use it? And do you anticipate that you will 
broadly use it, or will you use it only in certain 
circumstances or for certain kinds of projects?
    Mr. Long. So right now we don't have a full understanding 
as we are still in the response phase of Puerto Rico. What we 
know as we get into what is called permanent work, or the 
different categories, categories C through G, like fixing the 
public infrastructure, we know that we are going to run into 
it. We are already in the emergency work trying to get into 
areas of the power grid where you are having to do debris 
removal and brush removal because of overgrowth. And that is 
deferred maintenance which delays the recovery time. We know we 
are going to see it. We are anticipating it going into fiscal 
year 2018 into the permanent work issues of recovery.
    Ms. Roybal-Allard. OK. And under this authority or other 
existing authorities, will FEMA be able to fully fund the 
Federal share of a more modern, efficient, and resilient type 
of electrical generation and grid system for Puerto Rico, or 
will Puerto Rico only be eligible to receive an amount 
sufficient to construct a brand-new version of its current 
system which would still be vulnerable to future hurricanes? In 
other words, will FEMA funding reflect the higher cost of a new 
system that would mitigate against future disaster costs?
    Mr. Long. All of that is being taken into consideration. I 
am going to have to respond to you in writing on all of the 
issues that are there. Obviously the problem that we are facing 
in Puerto Rico is the liquidity issue when it comes to the 
reimbursement or to the cost-share issues that you are 
referencing. The bottom line is is that liquidity is standing 
in the way of doing things in a normal fashion, but I will have 
to get back to you on the specifics of that question.
    Ms. Roybal-Allard. What is your understanding about other 
Federal resources that might be available to Puerto Rico to 
cover any gap between what FEMA will provide and the added cost 
of more resilient infrastructure?
    Mr. Long. And this goes back to what I refer to as 
fragmented recovery. Every day we have what are called recovery 
meetings with our partners across the recovery perspective. And 
other agencies are in the joint field office. We are having 
those meetings daily when it comes to how our funding works 
together and where our authorities begin and end. And so, for 
example, we were in a very detailed conversation with Secretary 
Carson at HUD yesterday about housing and how FEMA can handle 
the housing for homes less than 50 percent damaged, but after 
that, it is going to be more of a HUD mission. And so we are 
looking at areas to hand that off.
    I still believe that, as a Nation, as a result of going 
through this, we can still do a much better job of streamlining 
all of these programs in assigning authority that is clear.
    Ms. Roybal-Allard. OK. Thank you.
    Mr. Long. Thank you.
    Mr. Carter. Mrs. Lowey.
    Mrs. Lowey. Thank you, Mr. Chairman, for holding this 
hearing. And after hearing from Mr. Brock, I just want to say 
that I will sleep better tonight. I am so impressed.
    Mr. Long. Thank you.
    Mrs. Lowey. And it seems to me you are handling this just 
right. And the only question I have before I get to my 
questions, when you are talking about rebuilding to standards 
and--whether it is homes or the electric grid or the highways 
or the roads, I was there with the Speaker not too long ago, I 
do hope, if we ever get this budget process going, we will be 
able to give you a number that will provide for adequate 
funding to do this, because I understand, as you are saying, 
you have to combine your efforts with HUD and other agencies. 
But knowing you are there will help me sleep better tonight. So 
I thank you very much for your presentation.
    Mr. Long. Thank you.
    Mrs. Lowey. So first question: Congress authorized the 
alternative procedures pilot program as part of the Sandy 
Recovery Improvement Act to test a more efficient approach to 
awarding public assistance grants. So I would like to know from 
you how has the alternative procedures program worked with 
regard to Superstorm Sandy recovery efforts? Do you anticipate 
that Puerto Rico will choose this approach? And if so, do you 
anticipate any changes in how the program will work for Puerto 
Rico?
    Mr. Long. Ma'am, that is an excellent question. Thank you. 
And what I believe you are referring to is Section 428 of the 
Stafford Act. For large-scale events, it makes sense to go the 
428 route. Now, a governor has to basically elect to go that 
route. Governor Rossello has proactively done so for Puerto 
Rico, and the reason that it is an advantage for us is--just 
merely going back to the roadway system.
    If there are thousands of problems within the roadway 
system, which there are in Puerto Rico, instead of having to 
generate thousands of project worksheets to fix those problems, 
and those project worksheets can be reversioned for many years, 
and there seems to be no end, the 428 program, as the governor 
so proactively agreed to, forces us to be outcome-based, and we 
can write one project worksheet for the entire roadway grid.
    Now, where we have got to do a better job in helping the 
city of New York or other communities is they obviously have 
some concerns of when we do the cost estimate up front, at the 
beginning of the 428 program, did we accurately estimate how 
much it was going to cost. And that alone sometimes is 
frightening for a community, and I understand it, to make sure 
that they have hit the nail on the head. But as far as the 
efficiency goes, the 428 program truly is, in my opinion, the 
way that we need to go forward and continue to improve it.
    Mrs. Lowey. So following up on that, what is the process 
for how FEMA and Puerto Rico find agreement on the cost 
estimates for the hurricane damage? I know you are in the 
process of evaluating this. How long will that process take? 
Because I am hoping that the current supplemental, which is 
inadequate, can reflect some of your recommendation.
    I don't want to put you on the spot, but I think it is 
important that we have a good idea, an accurate idea.
    Mr. Long. Sure. And you know what? This process never moves 
as quickly as citizens want it to move, because we have to be 
very careful with not only the inspections that are required, 
the technical expertise. For example, I don't know much about 
rebuilding a roadway system. I rely on U.S. DOT Puerto Rican 
transportation authorities and other agencies about what needs 
to work and what doesn't. So it is a comprehensive process that 
can't be done in a vacuum that requires many, many members to 
come in to tackle the situation and produce an accurate 
estimate.
    If you would like the details, I would be happy to provide 
you several examples that we are already going through in 
Puerto Rico to make sure that we try to nail this up front.
    Mrs. Lowey. So following up, I would like to really better 
understand how the alternative procedures approach can 
potentially help Puerto Rico with its resiliency efforts. How 
will Puerto Rico use other Federal agencies to supplement what 
it receives through FEMA for improved infrastructure and 
facilities that can better withstand extreme weather events?
    Mr. Long. Right. So the 428 pilot program does allow for 
some improvements to become more resilient, not just putting 
back things to predisaster condition only to have them knocked 
out again. We can provide you some details on that as well. But 
it also is more incentive-based. If they come in underneath the 
actual estimate, once the project is complete under the 
estimate, there are incentives for them to do so when it comes 
to retaining some of that funding.
    Mrs. Lowey. Mr. Chairman, did I use up all my time already?
    Mr. Carter. We will give you little bit more time, but you 
are already past right now.
    Mrs. Lowey. Well, I will hold the rest of my questions.
    Mr. Carter. All right.
    Mrs. Lowey. Thank you very much.
    Mr. Carter. We will get Mr. Culberson here in a minute, and 
it is really going to be hard to hold him to that.
    Mrs. Lowey. Thank you. Then maybe I will take back a couple 
of minutes from you.
    Thank you.
    Mr. Carter. Mr. Culberson.
    Mr. Culberson. Thank you, Mr. Chairman.
    I have to say, Administrator Brock, your testimony is truly 
one of the most encouraging, and really it is marvelous to hear 
your commitment to help the people of the United States but 
also your very clear understanding of the genius of the United 
States, that our greatest strength as a Nation is relying on 
the good hearts and the good sense and those great core values 
that every American holds in their hearts to look after each 
other. Because you are right, the very best first responders 
are Americans themselves looking after their families and their 
neighbors and their friends and the local communities.
    And I am just thrilled to hear what you said. Frankly, I 
want to make sure I get a picture with you, and we are going to 
put your testimony out on my Web site and get it out to all the 
people Houston and Texas. I mean, it is just superb. You are 
exactly right. And your willingness to be creative and 
innovative.
    I would encourage you to ask your staff to go through all 
the statutes that you are responsible for, administering all 
the programs that you are responsible for, and ask them where 
do you have flexibility? Where has the Congress vested you with 
discretion and authority to make decisions on your own? For 
example, one thing that you have got authority to do, and you 
have done repeatedly, which we appreciate, is extending the 
deadlines because of the scale of the disaster in Texas. I know 
you all--it is just unheard of, what we have faced. And you 
have been very accommodating in extending those deadlines.
    Another area you have got discretion in that I hope you 
will exercise is in Houston, all of the major synagogues in 
Houston flooded. Beth Yeshurun was completely destroyed. This 
was immediately prior to the high holy days. And the number of 
churches were flooded. But you have got the discretion to allow 
FEMA disaster assistance funding to go to reimburse or help 
defray the cost of rebuilding a religious institution.
    I encourage you to go ahead and do so. That would help a 
great deal, because Beth Yeshurun was completely destroyed and 
is trying to raise the money to rebuild. Is that something you 
would be interested in and able to do?
    Mr. Long. Yes, that is a great question, because there is a 
little bit of a misunderstanding about the houses of worship. 
They are eligible for public assistance reimbursement if they 
provide a critical service to the community. And so that is 
what we are working through. We are under litigation right now, 
so I have to be careful about what I put forward. But, yeah I 
think that we have to relook at all 502(c)(3) compliant 
nonprofit organizations that are active in disaster as well and 
the eligibility requirements around that. And we are actively 
doing that.
    Mr. Culberson. You are under an injunction to prevent you 
from doing so?
    Mr. Long. No, not right now. I said we are in the middle of 
litigation.
    Mr. Culberson. Make them sue you, Judge, and shut them 
down. They need your help.
    Another concern, if you take a look at the FEMA buyout 
program, for example. We have got neighborhoods in Houston 
where, as a result of previous floods, from the tax day flood 
to the Memorial Day flood, we had over the last couple of years 
where there were homes that were bought out by FEMA. And under 
FEMA rules, the land cannot be developed even if the--either 
the local community or the individual are the ones to buy the 
land, is willing to mitigate it. I hope you will look at that. 
I think you have got discretion in that area so that you could 
allow a local entity, for example, to go back in and buy these 
lots that are in the middle of very nice neighborhoods. You 
have all these great homes.
    And then buying a vacant lot that is deeded to the county 
that has got weeds to 3 to 4 feet high, why not let someone go 
in there and develop that property and build it as long as they 
mitigate it to protect against, for example, a minimum 100-year 
flood or even higher. I think you have got the authority to do 
that.
    Mr. Long. Let me get back to you on that one, and I would 
be happy to look into that as well.
    Mr. Culberson. You also are only able to elevate a home if 
you elevate an existing structure. Why not let the owner of the 
property elevate a home, tear down the old one and build a 
brand-new one? That would be a lot cheaper and a lot less money 
to the taxpayers as well.
    You have got a whole variety of, I think, flexibility in 
your authority in things that you could do that would be a 
tremendous help, that I would certainly--I know this committee 
would like to help you with. You will find no better friend 
when it comes to helping you be innovative and creative and 
thinking outside the box than Judge John Carter, the chairman 
of this subcommittee. He's been terrific in helping on this. We 
deeply appreciate it in Houston. We really do.
    And also on the premitigation money under section 404, that 
money could also be used to help mitigate or protect an area 
from future flooding, for example, correct?
    Mr. Long. Yes. Absolutely.
    Mr. Culberson. And you are exactly right. Get the money out 
front by pushing it out front to a community and ensuring that 
it is available to help protect against the next flood to at 
least a 100-year event would be a tremendous help in protecting 
the Southeast Texas where 80 percent of the Nation's 
petrochemical refining capacity is, 70 percent of the Nation's 
aviation fuel moves through Port Neches, the Port of Houston, 
are extremely important. So I look forward to working with you 
on that.
    And I thank you, Mr. Chairman, for the good work that you 
have done in making sure this good man right here is able to 
implement all those out-of-box thinking ideas that you learned, 
I understand in the state of Alabama.
    Mr. Long. Sure.
    Mr. Culberson. Thank you very much.
    Mr. Long. Mr. Chairman, may I have a moment to comment, or 
two, to comment on it?
    Mr. Carter. Yes. Absolutely.
    Mr. Long. So when you opened up, Congressman about your 
statement, and we are talking about being innovative and what 
my authorities are and what they aren't, one of the things that 
we get beat up on in the media, we get beat up by Congress, and 
we get beat up by elected officials all over is inspections, 
like when it comes to housing. You are too slow. You don't have 
enough inspectors.
    The magnitude of the inspections that are needed from the 
California wildfire to the Virgin Islands is unprecedented. We 
have had over 6,000 inspectors that we have gotten our hands on 
to be able to put out in the field. But after that, you start 
to run out of resources. And so when you run into that problem, 
it is twofold. And this is an example of fragmented recovery. 
How do we reduce the need for a physical inspector to be in the 
field without looking at technology, satellite imagery, flood 
maps, and saying, ``You know what, the house is flooded.'' Do 
we really need to send an inspector out there just to verify 
it? And it takes more time.
    The other thing with the inspection process is we have a 
staff member at FEMA. Her name is Henrietta Alleman. She is a 
native of Louisiana. And not only does she work for FEMA 
around-the-clock. But her house was flooded. And when I was 
asking for ideas, she said, ``Listen, you know what killed me 
is the number of inspections the Federal Government requires 
for me to get the assistance that I needed to fix my house.'' 
The flood program requires an inspection. HUD requires an 
inspection. Individual assistance inspections. Private 
insurance inspections. How do we get it down to one inspection 
that covers the multitude of everything that may be needed in 
the disaster recovery.
    Now, the question for me, Congressman, is what is in my 
authority to change that versus where I am going to have to 
come back to say, please, Congress consider this.
    Mr. Culberson. My brother, who is recovering from Stage 4 
throat cancer, is living in his driveway in a trailer, and has 
been with his entire house destroyed 6 to 7 feet of water for 
12 days, as are all of his neighbors. So God bless you. Thank 
you. You are exactly on target. And we are looking forward to 
helping you.
    Mr. Long. Thank you. Thank you.
    Mr. Carter. Very good.
    Mr. Cuellar.
    Mr. Cuellar. Thank you, Mr. Chairman.
    I passed some legislation, but I don't think FEMA has 
followed-up on this. Redundancy, elimination, enhanced 
performance--all those grants on--I am very happy that you are 
talking about some of the things that we need to address. I 
would like to talk to you later about this legislation that is 
on the books.
    Let me go over a couple of questions that we confer with 
Governor Abbott's office. As you know, there are some issues 
that we have down there in Texas. And folks over here, there 
is--I think there was four appropriators from Texas that we 
have been working on this issues.
    The first one, Mr. Long, how long is this disaster relief 
funding--how can this disaster relief funding be used? Because 
I know generally what we are talking about, but we want to make 
sure that that information is connected with the State and the 
locals.
    Mr. Long. Yes. So when it comes to just in general--and we 
can provide you details. But the two major programs are 
individual assistance and public assistance. And that is what 
we typically pay for. And when it comes to public assistance, 
there is multiple categories. There is emergency work, and then 
there is permanent work. So the emergency work, for example, 
goes to offset the cost of response. The response, it also 
offsets the cost of debris removal.
    But then as you get into the permanent work of fixing 
infrastructure, public facilities funding out of the DRF can go 
to not only fund that, but then, on the individual assistance 
side, it is other needs. It could be anything from dental needs 
as a result of someone who has had problems from the flood, 
from that standpoint, to rental assistance to direct critical 
needs assistance, $500 to help you buy groceries all the way to 
the housing mission that is there.
    So it is a wide array, and that is just a very small sample 
what----
    Mr. Cuellar. And what do you think the goal of the disaster 
relief funding should be? Because as you know, in Texas, when 
we presented our thing to the White House, there seems to be a 
disconnect from the way we look at the goal of disaster relief 
funding.
    Mr. Long. So, in my opinion--well, that is a tough question 
too, in my opinion, saving lives in the response to kick-
starting the recovery. The other thing that the DRF----
    Mr. Cuellar. And as you know--I am sorry to interrupt. 
Texas will say, well, how do we prevent some of those issues in 
the future? And that is where we are having a little 
disagreement.
    Mr. Long. Out of the DRF, the postdisaster funding that we 
are talking about, Section 404, a certain percentage of funding 
that we obligate becomes available for mitigation projects, not 
only through 404 but then also section 406. There is 
opportunities to mitigate infrastructure, public assistance 
damaged infrastructure. So they can actually utilize funding. 
Access becomes available to that funding after the disaster to 
do mitigation.
    Now, what I would propose is is that you leave the 406 
mitigation funding there to fix the infrastructure that is 
damaged. If it was damaged, let's rebuild it to a higher 
standard with that funding. The 404 money needs to go up front, 
because we require a local community or State community to 
design a mitigation plan. OK? But they don't have access to the 
funding they need to necessarily implement it.
    Now, it is not FEMA's responsibility to create resiliency. 
I ultimately believe that resiliency lies in the hands of local 
elected officials through building codes and proper land use 
planning. FEMA's assistance just supplements this capability. 
But if we move the 404 money to the front end, it does a couple 
of things. It reduces the complexity of recovery and the 
problems in increasing how long recovery takes, but it allows 
communities to properly plan and execute their mitigation plans 
up front before disasters strike.
    Mr. Cuellar. Well, I would ask you to continue working with 
our governor's office on this issue, because I think--my two 
other colleagues here from Texas, we have been having different 
discussions as there is a little difference of opinion from the 
State of Texas and up here, which is, basically I guess the 
last question tied in----
    I think you answered already--is this disaster relief 
designed or intended to support long-term recovery to make 
communities whole, which is--do you just fix that issue or can 
you use some of those resources for preventing some of those 
issues in the future, because otherwise we will be back again.
    Mr. Long. Well, here again, I will never make a community 
whole. And I don't believe that FEMA has the authority to make 
a community whole nor is it really my responsibility to make 
them whole. And here is the thing. Let's just say you have had 
a tornado go through a small Texas community that wipes out a 
majority of its infrastructure. FEMA is not trained nor should 
we be responsible in how to tell that community how to generate 
sales tax revenue after you have lost a large portion of your 
infrastructure. We are not good at that. We are good at debris 
removal, saving lives, coordinating response to do those 
missions. When it comes to long-term economic viability after 
going through a disaster, I am not so sure that that is FEMA's 
goal or mission. That might need to be the expertise of other 
portions of that whole community that I am talking about.
    Mr. Cuellar. I would ask you, on behalf of the folks here, 
to continue talking to our governor's office, because some of 
us are put in this type situation. I am not going to go in a 
second line of questions, so I am just going to ask this last 
one. Texas has $10 billion in a rainy day fund, which I am very 
familiar, because we were in the State legislature when we 
created that. It rained in Texas.
    Mr. Long. Sure.
    Mr. Cuellar. So I think Texas should use--and I have said 
this publicly--I assume we all have--whenever you have 
conversations, make sure that we talk to Texas to make sure 
they do their fair share also. It just can't come in just from 
the Federal Government, because people have a tendency of 
attacking the Federal Government. But when they need cash the 
Federal Government is their best friend. So I just want to make 
sure that everybody has skin in the game. So I would ask you, 
when you have conversations with the governor's office, you go 
over that.
    Mr. Long. Absolutely. Mr. Chairman, may I take a minute to 
respond to that?
    Mr. Carter. You may.
    Mr. Long. Let me be clear about the State of Texas. 
Regardless of the issues that may take place inside Texas from 
disagreements on your view or the governor's view, or whatever, 
Texas----
    Mr. Cuellar. Oh, we are pretty much on the same view.
    Mr. Long. No. But what I am saying is is that Texas is a 
model, and here is why, because they are owning their disaster 
recovery. They are owning the recovery housing mission, and 
they are asking FEMA to support. We have got to get all 50 
States to start owning the recovery process. I don't know how 
to fix your State better than you do. OK? And my role should be 
one of a counselor of saying, here is what you are entitled to 
and here is what you are going to need to achieve those goals.
    When it comes to a rainy day fund, I think that Congress 
should take a look at what States don't have them, period. So 
that when a Federal disaster declaration is not coming forward, 
then what is the obligation of a State to step up and serve 
their own citizens? And are these rainy day funds actually 
designed to handle individual assistance and public assistance 
at a smaller scale until Federal disaster assistance could be 
turned on at some point?
    So it is one thing to have a rainy day fund. It is another 
way of understanding how it is set up. And I think if we make a 
whole community improvement, then all these States need to have 
rainy day funds that are designed similar to the assistance 
that we put forward. But I am just one opinion.
    Mr. Cuellar. Well, we appreciate it.
    Thank you, Mr. Chairman.
    Mr. Carter. Doctor Harris.
    Mr. Harris. Thank you very much, Mr. Chairman, and thank 
you, Mr. Long, for coming before the committee. And I too share 
enthusiasm over the direction it seems FEMA has taken under 
your guidance. I will be brief, I think.
    It looks like the lesson from Puerto Rico is that--we kind 
of pulled the bandage off. What we kind of discovered is that 
the infrastructure has been neglected probably far longer and 
to a far greater extent than we even managed when we passed the 
PROMESA Act. And I guess we have to come to the policy decision 
of exactly how much are we going to ask the rest of the country 
to pay for neglected infrastructure that I think is far greater 
than anything we see in the 50 States. But that is an issue 
that we will grapple with as part of the request.
    But the two issues I have are how wisely and efficiently we 
spend money on emergencies. The New York Times wrote a story 
about by linemen who are fixing the grid there are getting paid 
$63 an hour, but the contractor who hires them getting 
reimbursed $319 from a contract that, ultimately, we are going 
to pay for. I assume; is that right? Was that a contract that 
ultimately FEMA was going to kind of pay for?
    Mr. Long. The power grid rebuild is being handled by the 
Army Corps of Engineers. They have two prime contractors that 
are managing the rebuild, as I understand it. And those prime 
contractors are bringing subconsultants underneath them. So it 
will be ultimately a good question for them.
    Mr. Harris. OK. So I guess it is part of the entire $44 
billion package, but not your part.
    Let me ask a very specific question that interestingly 
enough they couldn't answer at a agricultural subcommittee 
hearing on this disaster aid yesterday.
    When you pay for building projects to repair 
infrastructure, Davis-Bacon applies? Davis-Bacon rules?
    Mr. Long. I am assuming so. Yes. Absolutely.
    Mr. Harris. Do you think you could be more efficient with 
our taxpayer dollars if we carve out emergency spending and 
say, You know what. We can actually get far more infrastructure 
rebuild, and we can get far more disaster mitigation in the 
future if we actually didn't have to adhere to Davis-Bacon 
rules?
    Mr. Long. I don't know the answer to that question. I would 
be happy to come back with an opinion. I would be happy to work 
with OMB and the administration on that as well.
    Mr. Harris. Do you know how many States don't, in fact, 
have prevailing wage?
    Mr. Long. I do not.
    Mr. Harris. So we are asking--oh, I know there are many 
States. I know there are many States that don't. So we are 
asking citizens from around the country to pay for disaster 
mitigation, infrastructure rebuilding. Don't get me wrong. We 
need to do these projects. But if a project is done in their 
State by a private entity, they don't have to pay this premium, 
that Davis-Bacon makes these contractors--or makes these 
contracts cost through Davis-Bacon. But we are going to ask 
them to pay for repairs in other--for instance, in a State like 
Texas, if a private entity does--repairs their building, they 
are not subject to Davis-Bacon. But if FEMA comes in and pays 
for it--so if I get your answer right, if FEMA comes in to 
rebuild that same building, that same infrastructure, they have 
to ascribe to Davis-Bacon rules; is that correct?
    Mr. Long. As I understand it, yes. But I can get back to 
you.
    Mr. Harris. I would appreciate that very much.
    Thank you very much, Mr. Chairman. I yield back.
    Mr. Carter. I am sorry. Mr. Price, you are looking at me, 
but I am not paying attention.
    Mr. Price. All right. Thank you.
    Welcome, Mr. Administrator. I am proud to note that you are 
born and reared in North Carolina and have done very well, 
including this latest assignment. And we congratulate you on 
your appointment and on the way you are handling a very, very 
full plate. Most notably, three hurricanes and disastrous 
wildfires in your early months of service.
    Let me ask you about the White House's approach to this, 
the disaster supplemental request, which included the following 
sentence: The administration believes it is prudent to offset 
new spending. In order to offset increases to the new emergency 
spending we are requesting, the Congress should also consider 
designating offsets for the base appropriations as an 
emergency.
    Director Mulvaney then provided a supposedly helpful venue 
of inventory of options for cuts that totaled $59 billion, a 
menu of money of poison pills, you might say. Things like Pell 
grants, animal and plant health inspection, highway 
construction. Quite a list. Supposedly helpful as we try to 
meet this urgent request. Ironically, this request came one day 
after House Republicans, with the backing of the President, 
passed a package where the tax cuts exceeded the offsets by 
$1.5 trillion, which clearly would balloon our national debt. 
So I am not going to ask you to comment on OMB's approach to 
this. But I do want to confirm with you that every dollar of 
the $23.5 billion in Federal funding for the Disaster Relief 
Fund does qualify under the law as emergency spending and thus 
requires no offset. I am not asking what the administration has 
proposed. I am simply asking the simple question does this 
request qualify as emergency spending?
    Mr. Long. To my knowledge, I would say yes.
    Mr. Price. The answer is yes. All right.
    Let me move on to how we might approach the housing needs, 
which you have stressed, others have stressed. We do have a 
vehicle for housing support which has been utilized in other 
situations, and that would be the Disaster Housing Assistance 
Program, which FEMA and HUD enter into these agreements. They 
enter into after disasters. They did after Hurricane Katrina. 
We have seen a number of these agreements. As I understand it, 
there has not been such an agreement entered into, though, with 
respect to the current disasters.
    What could you tell us about that? Would a DHAP program be 
helpful in this situation? Is it appropriate in this situation? 
Have you discussed the possibility of such an approach with 
Texas, Florida, Puerto Rico, the Virgin Islands, the effected 
jurisdictions.
    Mr. Long. Sure. Absolutely.
    So, here again, each one of the housing missions is 
incredibly unique. A one-size-fits-all solution is not going to 
work. What works for Texas is not going to work for California. 
It is not going to work for Puerto Rico. We are in daily 
conversations with HUD.
    For example, in Puerto Rico, and we are having discussions 
about where FEMA housing assistance begins and ends versus 
where HUD picks up. And so that discussion was occurring 
ongoing as of yesterday as well, and will continue. And I will 
be meeting with HUD as I go back to Puerto Rico on Sunday and 
Monday of next week.
    When it comes to housing, I think there is a lot of room 
for improvement when it comes to who is totally responsible for 
disaster housing and how we implement this down. Now, I will 
say this.
    You want to talk about cost the estimates are all over the 
place, but we have run some analysis where just to bring one 
manufactured home into a community costs the taxpayer $202,000, 
cradle to grave. Think about it. I have to buy it. I have to 
haul it. I have to install it. I have to make sure that it is 
secure. I have to watch over it for 18 months, sometimes maybe 
more. Then I have to dispose of it. So how do we get more--how 
do we do things better.
    Manufactured housing is always going to have to be an 
option on the table, because in some areas, particularly rural 
areas, there are no other options, such as a multitude of 
hotels. But what we did in Texas, which I would ask you guys to 
take a look at, was something truly innovative.
    Instead of bringing in a manufactured home, if your house 
was less than 50 percent damaged but yet you sustained more 
than $17,000 worth of damage, then we are trying to change the 
world by allowing--granting the money down through the general 
land office to the local governments and Council of Governments 
to do $60,000 worth of permanent construction to the household. 
$60,000 worth to the household to get people back in their 
homes. It is not going to move--it moves at a swift glacial 
pace if you have lost your house.
    But to the taxpaying public, we have got to find better 
solutions for housing across the board. Bringing in travel 
trailers, whether it is FEMA assistance or DHAP programs, we 
got a lot of work--you know, a lot of work. It is not a fun 
program to put forward. It is truly necessary, but there is a 
lot of money that can be saved and a lot more efficiencies that 
could be put in place.
    Mr. Price. Well, I appreciate your perspective on that. The 
DHAP program in particular has been utilized, however. It has 
utilized commonly. And it is not being utilized at this moment, 
so you understand where I am coming from as to whether this is 
a vehicle or a tool that, perhaps, we should consider in this 
instance.
    Mr. Long. Sure. Thank you.
    Mr. Price. So if you will get back to me.
    Mr. Long. We will get back to you, sir.
    Mr. Price. I appreciate that.
    Mr. Culberson [presiding]. Thank you, Dr. Price. And I 
appreciate you mentioning that, Director Long, because that is 
important, to give people that flexibility to push the money 
out there. We have got tens of thousands of Houstonians living 
on the second floor of their home with all the sheetrock torn 
out.
    I want to make sure they are eligible for funding. They 
have been displaced. They just don't have anywhere else to go. 
And, by the way, my brother bought that trailer. He put it in 
the driveway. He always wanted one, but--he wanted an RV--but 
not this way.
    Mr. Long. Right.
    Mr. Culberson. Dan, thank you. Mr. Newhouse, thank you.
    Mr. Newhouse. Thank you, Acting Chairman Culberson, 
Chairman Carter, Ranking Member Roybal-Allard, thanks for 
having this hearing.
    Welcome, Mr. Administrator. I appreciate your being with us 
today reporting on Puerto Rico. I want to join my colleagues in 
expressing the--I certainly love to hear some of the things 
that you said. You didn't come to preserve the status quo, and 
you would like to work on change. And your words about 
resiliency are very good.
    In the spirit of improvement, we like to hear those kinds 
of things, and we look forward to working with you on all of 
that. So I am glad to hear that there is progress being made in 
Puerto Rico. I have been on a couple hearings learning about 
some of what is happening. Lots of work yet to do, but we are 
making some good progress.
    I wanted to focus--as you continue your work there, I want 
to make sure that we are focusing on rural areas just as much 
as urban areas. And I will use some of my own experience as an 
example. I am from the State of Washington, and you may or may 
not know, but you will in the next few years, I am sure, 
unfortunately, we have had historic wildfires in our State as 
well as the rest of the West. We have received major disaster 
declarations, certainly. In my State, over the last a couple of 
years, we burned accumulatively, I think, over 2 million acres. 
Something like 400 homes have been consumed. FEMA denied any 
individual assistance for these disasters.
    And so what we have found in States like mine where we have 
large population centers in large rural areas, that, for some 
reason, the current formula as it comes to determining disaster 
aid leaves us out.
    And so the words concentration come up in conversations 
with officials from FEMA. And so I guess my question relates to 
looking at how these determinations are made, any formula 
changes that FEMA may be considering, how we can work with you 
to consider some of these changes to make them more workable, 
more clearly define those formulas, so then, at least in my 
opinion, that urban and rural are treated equitably.
    Mr. Long. Sure. Congressman, you raise a very sensitive 
issue that I am very familiar with. Having been the State 
director of Alabama's emergency management agency, the nature 
of many of those counties is very rural. And whether it is a 
wildfire or a tornado, in some cases, the most rural 
communities can truly sustain a lot of damage that doesn't 
necessarily meet the public assistant numeric indicators, and 
there are tremendous amounts of individual assistance needs 
that are there, but because the rural nature versus the State 
numeric indicators that are there, they are, in some cases, 
somewhat penalized.
    Now, we have to find a balance, and I would be happy to 
work with you. The Sandy Recovery Improvement Act reset the 
thresholds or the considerations for individual assistance. Is 
it perfect? That is up for debate and discussion.
    But I do have a question. When it comes to the whole 
community and the responsibilities of all levels of government, 
if Federal disaster assistance is not coming, what is the 
State's rainy day fund designed to do to help those rural 
communities as well? Because we see this--a majority of the 
disasters and emergencies that occur nationwide, FEMA is not 
involved in. I mean, there are hundreds of disasters that FEMA 
doesn't come to assist us in. And what I am afraid of is, is 
does that increase what is on my plate from the standpoint of 
trying to work a much smaller level of disaster approval when 
it comes to individual assistance or public assistance. And it 
puts us in a tough spot.
    Look, I didn't get into emergency management not to help 
people. I have the spirit to want to help people. That is why I 
am where I am. But at some point, we have to figure out what 
the true capability of each State and local government should 
be to work with their own citizens.
    Mr. Newhouse. I would not disagree with that. In fact, I 
would agree that it should be a concerted effort to work 
together, all agencies.
    Mr. Long. Sure.
    Mr. Newhouse. Local, State, and Federal. And but it seems 
to me we are not quite to the place where we need to be on all 
of those levels.
    Mr. Long. Sure, sure.
    Mr. Newhouse. But I appreciate that and understand the 
sensitivity or the wisdom it is going to take to find that 
balance.
    Mr. Long. Sure.
    Mr. Newhouse. And I look forward to working with you on 
that.
    Mr. Long. And I look forward to working with you, sir.
    Mr. Newhouse. Good.
    Mr. Long. Absolutely.
    Mr. Newhouse. Thank you. Thank you.
    Mr. Chairman, I yield back.
    Mr. Carter. Thank you.
    Mr. Ruppersberger.
    Mr. Ruppersberger. Administrator Long, this is your day. 
You have received compliments from both sides of the aisle, and 
I think they are well deserved. I think, unfortunately, 
sometimes in the government, whether Federal, State and local, 
we have too many political appointments who don't have 
expertise or have the ability to manage. And looking at your 
resume, other than the fact you didn't come from Maryland--you 
came from North Carolina, and you worked in Alabama--that is 
OK. I like my southerners. But I appreciate your 
straightforward, your ability to look at problems and to solve 
them. And I think that is an important issue.
    I was a former county executive, Baltimore County, close to 
800,000 people, a lot of waterfront in that area. And during my 
tenure, we had a lot of issues in waterfront properties. And I 
agree with you on the issue that local government has to change 
their zoning laws and their ability to rebuild so that they can 
be protected. And I think that happened in Florida after some 
of the storms, that they withstood a lot of these storms 
because you can't rebuild and have it come over and over. So I 
really think that is important, and I agree with you focusing 
on that issue. It is extremely important.
    What I want to get into--because a lot of times, they are 
not protected. I know the chairman likes them a lot. But I want 
to get into the Coast Guard. The Coast Guard--this is probably 
going to be more of a statement, but I do want to ask you a 
question.
    The Coast Guard for their tremendous hurricane response, 
they rescued more than 11,500 Americans in the last 3 months. 
Per the Commandant, the branch is facing a $914 million 
shortfall to attend to a backlog of ship and aircraft 
maintenance and repairs for hangars and other facilities 
damaged by storms. With that being said, the request in front 
of us turns its back on the Coasties, only offering $500 
million, less than the admiral's request.
    The Coast Guard is always doing more with less. I didn't 
realize that until I came to Congress, that they were the 
stepchild, probably of the Army, Navy, Air Force, Marines. And 
the good news, I think they are in Homeland Security, where 
they need to be, and now they are getting acknowledged for what 
they do. They consistently get the job done and a lot of times 
taken for granted, and for this reason, we rarely increase 
their funding.
    It is something that the better they do, and they do it 
with less, and then what is their reward? They keep getting 
less, less, less. Sooner or later, that is going to backfire.
    Now, the President has requested that this cut be done. I 
know that you don't have authority there, but I understand that 
it comes through you, it comes through, probably OMB, to you, 
and then you delegate that or you pay that out. And if we 
don't, if we don't take care of the Coast Guard, they are not 
going to be able to produce like they have. What can you do, if 
anything, recommendation, to make sure that they get the 
request, close to the request that they asked for?
    The other thing, and the elephant in the room every time, 
is sequestration. And it is up to Republicans and Democrats in 
a bipartisan way to do away with this terrible law that makes 
us weaker militarily, domestically, in whatever we do. And I 
want to raise that just as an issue. You don't have to answer 
that, but I do want to get on how we can do more and what your 
recommendation would be--I realize you don't have the 
authority; you are more of a pass-through that gives it to the 
Coast Guard--to deal with issue because you need them and we 
need them.
    Mr. Long. Yeah. So, by and large, we always mission-assign 
for large events the U.S. Coast Guard to be able to do the 
life-saving mission. And they provide tremendous capabilities. 
I have the deepest respect for the members of the Coast Guard.
    And in regard to your specific question about--I am Coast 
Guard advocate. Based on what I have seen I would be happy to 
go back to the Department of Homeland Security and the 
administration to address the issues or understand them, but I 
don't want to speak for the Commandant and the Coast Guard 
directly here, if that is OK.
    Mr. Ruppersberger. Yes, but isn't it my understanding, it 
comes----
    Mr. Long. We mission-assign them, and through the Disaster 
Relief Fund, we can provide reimbursement for the usage of 
their equipment and the disaster costs. As far as fixing 
equipment, I don't believe we have the authority to do that.
    Mr. Ruppersberger. OK. I yield back.
    Mr. Carter. Thank you.
    I believe it is back to me. And we have had a series of 
really good questions on both sides, and I am very appreciative 
of the questions.
    My colleague Ken Calvert, a current cardinal and a friend 
of all of us on this committee, wanted me to ask this question: 
California requests an increase to the 75/25 cost share for 
debris removal related to the fires in Santa Rosa. The State 
requested the waiver on October 8. It has not received a 
response.
    Could you tell us what the status of this request is, and 
do you foresee any issue with this request from being approved?
    Mr. Long. I will have to come back to you on the exact 
status of where it is in the queue. It is probably under 
consideration right now. So I would be happy to come back and 
work with you, sir, on that.
    Mr. Carter. You know that they do have the ability to have 
a waiver of up to 90 percent.
    Mr. Long. I do, yes, sir.
    Mr. Carter. I would like to speak to you more generally 
about the process for determining the Federal cost share for 
FEMA public assistance. I understand this is largely formula-
driven but that FEMA also makes assessments on a disaster-by-
disaster basis to determine when it is appropriate and 
necessary to increase the Federal cost share of a disaster.
    How does FEMA work with the affected areas to ensure that 
cost share are determined fairly and accurately, and what other 
factors does FEMA consider outside of the per capita cost of 
the disaster?
    Mr. Long. Mr. Chairman, this is another area where Congress 
needs to look at the whole concept of the numeric indicators 
that we use in general.
    So typically what we look at is, it is a formula of, I 
think it is at $1.43 per person based on the State population, 
which determines whether or not we believe Federal disaster 
assistance should be made available or public assistance should 
be made available to a State after a disaster, OK, on uninsured 
losses, right.
    For 10 years, that numeric indicator did not change 
according to inflation. And, honestly, if it had, that numeric 
indicator today would be $2.27 per person, which would shock 
the system and be a tremendous amount of money that State and 
local governments would be responsible for.
    I often question whether or not the numeric indicator 
actually measures a State and local's capability to handle 
disasters in its entirety, but that is just the way business 
has been done since 1986. It is time to take a look at that 
entire formula and how we determine assistance.
    Now, when it comes from being 75/25 to 90/10 or even up to 
100 percent, PKEMRA laid out a formula, a numeric indicator, 
PKEMRA laid out a formula that we typically follow to go to 90/
10 percent cost share. And so that is what we are following 
currently.
    Mr. Carter. I want to shift gears to something you and I 
talked about on the phone.
    Mr. Long. OK.
    Mr. Carter. The State of Texas is taking the lead in the 
housing mission for survivors of Hurricane Harvey, which as I 
understand, is the first time a State has assumed this role. 
While I am confident that Texas is well equipped to handle such 
a task, implementing a new process while responding to a 
disaster of this magnitude inevitably comes with problems.
    Can you tell me about how this process has been working? 
Have you seen any efficiencies with the State in the lead role? 
How is FEMA making sure the needs of disaster survivors are 
addressed and that no request slips through the cracks under 
this new process?
    Mr. Long. First of all, Governor Abbott made a very bold 
and courageous decision to lead it. And not only lead it but to 
be innovative in the way that we tried to address the housing 
issues.
    For example, hundreds of thousands of homes have been 
impacted. There aren't enough trailers and, in some cases 
hotels, to be able to service this one disaster, much less Irma 
and everything else. So what is being done right now is that 
FEMA is basically traditionally running the housing mission, as 
we normally would, on behalf of the State, but we are in the 
transition point of making sure that the General Land Office 
has its feet underneath them to be able to administer the grant 
dollars down, to run all aspects of the housing program.
    I am not going to allow the State of Texas to fail. Will it 
move quickly? Housing never does because of the sheer 
complexities that we often run into when it comes to the 
different types of damages that people have seen, whether they, 
their house is totally destroyed or can be repaired or what it 
requires. But we are working every day. I was in Texas 2 weeks 
ago, right before the Thanksgiving holiday making sure we met 
with George P. Bush, as well as Governor Abbott, on a 
transition and making sure that this becomes a successful 
program and that, because they were willing to bite off this, 
that we are going to be with them every step of the way. We are 
not going to hand this off and then back out. I am not going to 
allow my staff to do that. So we will be with them through the 
completion of this housing mission.
    Mr. Carter. Well, I have a lot of confidence in the land 
office, and I think they will do you a really good job, and I 
am glad you all are partnering up on this. I think any time you 
try a new concept, I think it is thinking outside the box, 
which government should do more of and doesn't do very well. So 
I congratulate you on doing that.
    The next question is one that I know that Farenthold has 
been talking to Ms. Granger about, so I am asking this on 
behalf of them.
    I have heard of delays and other issues in some of the 
smaller communities, the communities with fewer resources along 
the coastline. What is FEMA doing to ensure these communities 
get the assistance they need to successfully access Federal 
funding available to them? And this is really the lower coast 
down towards Corpus Christi, Rockport, Port Aransas, all that 
devastated area.
    Mr. Long. So I am not sure of the exact issues that he is 
referring to, but I do know that my staff is on the ground, and 
I do know that the manufactured housing units that have been 
requested, you know, they are mobilizing to the coast, and many 
of them are in place.
    Do we have a long way to go? Of course, we do. But there is 
movement down there. Here again, we are trying to move as fast 
as we can based on the material and the personnel that we have, 
and I would be happy to check back in and directly contact the 
Congressman as a result of this hearing. I will be happy to 
hear him out.
    Mr. Carter. OK. I will tell him that. Thank you. Ms. 
Roybal-Allard.
    Ms. Roybal-Allard. I want to go back to one of my original 
questions, and that had to do with the proposal to give you 
discretion to waive the predisaster condition limitation on 
public assistance grants. You answered the part with regards to 
Puerto Rico, but I also would like to know if you considered 
extending that authority to the U.S. Virgin Islands, and if 
not, why not?
    Mr. Long. I will have to get back to you on that one as 
well. The deferred maintenance issues and just the antiquated 
infrastructure of Puerto Rico is vastly different than even in 
the Virgin Islands, but I will definitely go back and take a 
look. I don't know the answer to that question right now.
    Ms. Roybal-Allard. OK. Thank you.
    I understand that General Buchanan and a large part of the 
military presence have left the island. And prior to this, 
General Buchanan was charged with coordination with Federal 
agencies and the Puerto Rican government. Now, my understanding 
is that FEMA has that role.
    I have three parts to my question. Has this transition gone 
smoothly, and is coordination, how is it going generally? And, 
also, will FEMA be in charge of coordinating the long-term 
recovery effort, and if so, does FEMA have the resources in 
terms of staffing to manage a project of this size while 
maintaining the operational ability to respond to new 
disasters?
    Mr. Long. Sure. So the incident command structure in Puerto 
Rico has always been we have had a Federal coordinating 
officer, a FEMA Federal coordinating officer, who is the lead 
authority in charge. Technically, a Federal coordinating 
officer is an arm of the President of the United States. That 
person is Mike Byrne.
    General Buchanan technically would report to the Federal 
coordinating officer since inception of him being in Puerto 
Rico. And so, obviously, as we transition out of response to 
more recovery, we start to demobilize some of the staff but 
also increase staffing with the expertise to run into the long-
term recovery. Releasing General Buchanan is not something that 
we do haphazardly. It was a very methodical decision to 
demobilize him, but it should have been a seamless transition. 
And as I am aware, it was--or is.
    In regards to the long-term disaster recovery, what we try 
to follow is what is called the National Disaster Recovery 
Framework. And so what it does, it points out six different 
recovery support functions. It could be economic viability to 
housing. And so the goal of that is, is to--and we have already 
been working with our Federal Government agency partners to 
make sure that if they are the primary agency in charge of a 
specific recovery support function, that they are sending staff 
to Puerto Rico that have the authority to make decisions there 
on the ground rather than here in Washington, DC, because I 
believe that all incident command decisions should be made 
closest to the event rather than all the way back up here. And 
that is the framework that we are following, and that is how we 
are staffing the long-term recovery going forward.
    Ms. Roybal-Allard. OK. The supplemental request from the 
administration includes request language that would require 
Puerto Rico to submit a recovery plan to the President and to 
Congress. Now, this plan would be developed in consultation 
with FEMA, the Department of Treasury, and other Federal 
agencies identified in the National Disaster Recovery 
Framework. It is important that Puerto Rico has ownership of 
the plan, but they are going to need technical assistance. So 
in what ways will FEMA and the other Federal partners help 
support the creation of such a plan, and can you explain how 
this process will work and the importance of the National 
Disaster Recovery Framework.
    Mr. Long. Right. So here, again, we will use the framework, 
and if I remember the language correctly in the supplemental, 
it doesn't just say a Puerto Rico recovery plan; it is a plan 
that is infused with FEMA and our additional stakeholders, as I 
recall.
    So we recognize that this is the first time that Puerto 
Rico has run through a long-term recovery like this. And so we 
do not ever want to set up Governor Rossello for failure to 
say, ``Write your plan, execute it,'' and we back out. We will 
be there for many years to come executing this disaster 
recovery framework. And the Governor knows that. I will be 
seeing him next week. I talked to him earlier this week, but I 
will be seeing him next week to make sure that I put boots on 
the ground on a regular basis to say where are we versus where 
we need to be, and what do you need?
    But you are right in your statement. The thing that is 
right is the Governor is willing to step up and start owning 
the long-term recovery. And I think he is beginning to look at 
this as an opportunity to rebuild Puerto Rico in a more 
resilient fashion.
    Ms. Roybal-Allard. Thank you.
    Mr. Carter. Mr. Culberson?
    Mr. Culberson. Thank you, Mr. Chairman.
    Administrator Long, I just can't thank you enough for your 
innovative thinking and your willingness to trust the good 
hearts and the good instincts of individual Americans, and, as 
you said, to put the command decisions for response to these 
disasters as close as possible to the disaster itself at the 
hands of State and local officials, and, more importantly, your 
willingness to put it in the hands of individual Americans 
because I can tell you there is some great opportunity there.
    The Federal Disaster Mitigation Program, for example, 
today, is designed to obviously mitigate future risk of 
flooding and minimize the cost to the Federal Government. But 
to an individual homeowner, for example, and, again, one of the 
bedrocks of the American system is private property rights, 
because we know nobody is going to take better care of that 
property than the individual property owner. And I would 
encourage you--I would really like to work this through with 
you in more detail.
    Let be bounce this off of you. I have met with a lot of 
constituents who have come up with a lot of really good ideas 
to improve the Federal program. And CDBG, Mr. Chairman, the HUD 
program, Lucille and David, comes at the tail end. That housing 
money comes way at the tail end of the process. And we are 
focusing, the money is upfront, and if we would, as you have 
said, push the money out early and get it in the hands of the 
individual homeowner right away, as quickly as possible, to 
mitigate the damage, to repair the damage to their own home, 
and to mitigate the flood risk for the future, I think the 
Federal Government would save a vast amount of money.
    Because, for example, today, if a homeowner qualifies for 
FEMA disaster assistance, the only option available to them is 
essentially either to raze an existing structure or just 
participate in a buyout, and then the Federal Government owns 
the land. That is actually, in this case, I discovered, David, 
the deed is in the hands of the county, Harris County, which 
makes no sense because then you have literally got--I have got 
neighborhoods with beautiful homes all in a row, and then there 
is an empty vacant lot with weeds about 5 feet high, and the 
county owns the property. The homeowners association has to go 
in there and mow it. It is taken off of the tax rolls. So it is 
just a burden to everybody.
    So what if you simply--we change the way this FEMA program 
works so that if Dr. Price's home flooded, that you would be 
able to apply, David, for assistance, and the money would go 
directly to you upfront, and you would have the option to 
either mitigate the property--because right now, you either 
have to sell it to the Federal Government or raze an existing 
structure. But why not limit the amount of money the Federal 
Government could give you, and you get the money upfront, you 
hire a contractor, decide to either tear down your existing 
home or build a new structure, but it has to be razed or 
mitigated so that you are ready for the next flood? Your 
property stays on the tax rolls. You are going to build a home 
that suits you and your family and suits the neighborhood. You 
are going to save the Federal taxpayers a ton of money, and it 
is not going to be taken off of the tax rolls of local 
government.
    Again, simply by trusting Dr. Price's good heart and his 
good instinct to take care of his own property in his own 
neighborhood, you see that would, I think, if we created a 
program like that--doesn't that fit with precisely what you are 
recommending, that we get the money out front?
    Mr. Long. I am all for innovation, and I think what we 
would be happy to do is work with you to discuss the pros and 
cons of the ideas that you are putting forward. And I am all 
for bettering any situation and doing more mitigation because I 
do believe that mitigation is the key to future resiliency. But 
we have also got to tackle some systemic problems and myths 
that we have in this country.
    Insurance is the first line of defense. And I don't just 
say that to say it, but those who are insured recover quicker 
than those that don't when they are hit, right. In California, 
what was interesting is it is not just a flood insurance 
problem of having insurance or not, but it is allowing a 
homeowner to let their insurance lapse. And in some cases, what 
we saw is that the insurance lapsed: The house was paid off; 
the insurance lapsed. And you have got a huge portion of the 
homes that are impacted in California that are uninsured now. 
And that becomes, that becomes my problem to fix through 
individual assistance, and I can never make them whole.
    We have got to go back, in this culture of preparedness 
concept that I am pushing, and teach people about insurance, 
not only of their dwelling, mitigation tactics, but it is not 
just mitigation tactics at the home. It is mitigation tactics 
that are low-to-no-cost tactics for schools, for businesses and 
homes, and then offering that money upfront. I am all up for 
offering money upfront.
    Mr. Culberson. Right. Low to no cost.
    Mr. Long. It doesn't make sense not to have on--low-to-no-
cost options that do the greatest good down the road.
    Mr. Culberson. You are exactly right. And do it upfront.
    Mr. Long. Right.
    Mr. Culberson. Low to no cost. And I want to particularly 
thank one of my constituents, Charles Goforth, who is the 
president of the Meyerland Homeowners Association, who spent a 
lot of time working on this. Meyerland is an area that is 
flooded repeatedly over the years. It is sort of a bowl in 
Houston. But they are devoted to the neighborhood. They are 
devoted to keeping a thriving, vibrant neighborhood. It is 
where a lot of the largest synagogues in the State of Texas are 
located. If you are Orthodox, for example, if you are Orthodox, 
you have got to live within walking distance of your synagogue 
because you can't drive a car on Saturday.
    So these folks, I am telling you, there is no better--I 
want to thank Charles for these ideas because he is exactly 
right. If you qualify today for mitigation money from the Feds, 
there are only two options: buy out or raze the existing 
structure.
    So let us change the system. I want to work with you, and 
you, Mr. Chairman, and this subcommittee, to find a way to get 
the money out front.
    Mr. Long. Sure.
    Mr. Culberson. And in the hands of the homeowner, who is 
going to do the best job, the quickest, the fastest and the 
most effective, saving money for everybody in the process and 
getting that homeowner made whole in a way that suits them and 
their family much, much more quickly.
    I think we are on the right path. And I thank you very 
much, Mr. Chairman.
    Mr. Carter. Mr. Price.
    Mr. Price. Thank you, Mr. Chairman.
    Let me turn to a troubling aspect of most disasters that we 
have had in recent years. And that is reports of individuals 
being increasingly vulnerable to sexual assaults during the 
chaos of the disaster and directly afterwards. And part of the 
problem seems to be overcrowded and understaffed shelters that 
put people at greater risk of domestic violence and sexual 
assault. It was reported that one third of the sexual assaults 
that occurred during Hurricanes Katrina and Rita took place at 
emergency shelters.
    So I am wondering what account FEMA might have taken of 
this. It would be practical, for example, for FEMA shelters to 
have safety plans and processes in place to respond to sexual 
assaults, for individual shelters to have educational 
information available detailing emergency domestic violence and 
sexual assault services in the area. So I have a couple of 
questions.
    One is, are you aware of whether this pattern has continued 
during this most recent, this most recent spate of disasters? 
Has there been the same kind of problem reported, sexual 
assaults occurring in this immediate post-disaster period? Does 
FEMA track such assaults? Is there anything being done to 
prevent this behavior from taking place in shelters?
    Mr. Long. Sure.
    Mr. Price. And then, secondly, what about the preexisting 
domestic violence shelters that are damaged? As of October 1, 
we have reports that 23 domestic violence shelters have been 
significantly damaged; 19 have been moderately damaged. Of 
course, they need to be either repaired or rebuilt. After 
Hurricane Sandy, in 2012, Congress provided $2 million 
specifically to repair domestic violence shelters postdisaster.
    So I am wondering if you have any plans to help domestic 
violence shelters in particular and might we expect a specific 
proposal along these lines?
    Mr. Long. Sure. Congressman, so, first of all, anything we 
can do to provide a safe shelter environment from the whole 
community is in all of our best interests. Obviously I 
definitely would like to be a part of being able to do that. 
But I think it is important to point out that shelter 
operations, FEMA does not run shelter operations. We basically 
pay for these. A lot of the shelter mission is run at the local 
level in conjunction with the American Red Cross, and we would 
be happy to reach out to Gail McGovern at the Red Cross to 
understand what the trends are. I can't answer for the most 
recent events. I have not been made aware of disturbing trends 
of this taking place in shelters, but I would be obviously 
happy to look into it to see what changes we can effectively 
make on that.
    And I want to make sure that I understand: You are 
referencing in the second part of your question, domestic 
violence shelter; is that what I understand?
    Mr. Price. Yes.
    Mr. Long. OK. If they are a registered 501(c)(3) compliant 
nonprofit organization that does that and they sustain damage 
and they provide those critical facilities, they should be 
eligible under public assistance. If they are not, then that 
might be where the discrepancy is, if they are not registered, 
but we would be happy to look into that as well.
    Mr. Price. Well, let's check on both things if you will.
    Mr. Long. Sure.
    Mr. Price. On the last one first. There was a specific 
appropriation after Sandy. That is what caught my eye.
    Mr. Long. OK.
    Mr. Price. So I am not sure why that was deemed necessary, 
but it certainly was helpful.
    Mr. Long. OK.
    Mr. Price. And it may or may not be indicated in our 
present situation.
    And then, as regards the reporting, we do have earlier 
reporting on Katrina and Rita, and the level of assaults that 
followed those disasters. And so somebody somewhere should be 
monitoring this, and I understand you have shared 
responsibility. But there, too, I would appreciate your getting 
back to the committee as to what kind of monitoring you or 
anybody else is doing and what the indications are as to the 
level of this problem with these current disasters.
    Mr. Long. OK. We would be happy to get back to you on that. 
And I can tell you with the oversight of the grant funding, 
regardless of what mission it serves particularly I am taking a 
very proactive stance in making sure that we are monitoring tax 
paying dollars very carefully.
    For example, we have mobilized procurement disaster 
assistance teams to be embedded with grant recipients. I have 
also deployed the Office of Inspector General underneath the 
Homeland Security to be in the field with us to help us uncover 
any issues or mistakes we may be making upfront. We also 
provide quarterly reports and we have public assistance 
managers embedded with people who receive our funds.
    So I am trying to put a multilayered approach down to make 
sure that we are expending funding according to rules and 
regulations and policies as much as I can. But I am always open 
to improvement. And here again, I believe that any of the money 
management that comes down from the Federal Government is the 
responsibility of not only FEMA but the whole community. And we 
have a lot of training to do and to also set the expectations 
at the State and local level or the subgrantee recipients, 
whether it is a nonprofit or a government entity.
    Mr. Price. Thank you.
    Thank you, Mr. Chairman.
    Mr. Carter. Thank you, Mr. Price.
    We are not going to do another round, but I think Ms. 
Roybal-Allard has another question, and I am going to yield to 
her right now.
    Ms. Roybal-Allard. One quick question with regard to 
California. On October 10, the President issued a major 
disaster declaration for areas of northern California that were 
ravaged by the wildfires, and this came on the heels of several 
fire management assistance declarations for California in the 
preceding days. The supplemental request does not specifically 
address Western wildfires. So my question, is there sufficient 
funding in the Disaster Relief Fund to provide all the eligible 
aid to individuals and communities, and what is FEMA assuming 
for the overall cost of the fires in terms of the Disaster 
Relief Fund?
    Mr. Long. Sure. Excellent question. So, with California, as 
I said earlier, one of the most disturbing events I have ever 
seen and the sensitivities around that and the deaths that were 
there. It is something that we have to look into.
    In regard to the cost and our appropriations and the ask if 
you look at some of the numbers, if I look through for Harvey--
or excuse me, for Maria, we have obligated about $7.2 billion. 
For Harvey, we have obligated about $4.6 billion to this point. 
For the California wildfires, it is $1.1 billion. It is 
something that we are taking into account for the normal 
disaster relief fund appropriation through the BCA and the 
formula that is set up.
    If we can't get through, if we need additional funding, we 
obviously would come back for a supplemental after the fiscal 
year 2018 year or before, if needed. But right now, we think we 
can absorb the cost based on the trends that we are seeing of 
California in the appropriation, the normal appropriation route 
of the DRF.
    Ms. Roybal-Allard. OK.
    And, Mr. Chairman, if I may, I just want to say that I am 
equally encouraged and excited about your testimony and your 
response to the questions that this committee has had and 
really look forward to working with you and the committee to 
make FEMA more efficient and more effective in terms of our 
response to these disasters. So thank you for being here.
    Mr. Long. Thank you, madam.
    Mr. Carter. I am going to have one more kind of off-the-
wall question I want to ask you or discuss with you. When this 
all happened and it was all over the newspapers that there was 
no power in Puerto Rico, I happen to be having a meeting in my 
office with people from the power business on a totally 
different matter.
    Mr. Long. OK.
    Mr. Carter. And so I asked him, I said: Hey, why don't you 
guys be good citizens like in Houston, pack up your gear and go 
over and fix that, at least to where they get some power.
    And their response to me, which I think you have been 
saying indirectly, is it is the most antiquated system maybe in 
existence, definitely in North America.
    Mr. Long. The United States, yeah.
    Mr. Carter. And we don't even have parts to fix a lot of 
what they have got there. And the real world is, if we went 
over there to do it, we would have to rewire the whole island.
    Mr. Long. So I am sure that there are plenty of media 
interviews of me before Maria hit saying: Prepare for the power 
to be off for many months.
    And we knew that before Maria hit. The Governor of Puerto 
Rico knew it. And it is unfortunate. It doesn't alleviate this 
pain and suffering. We are moving as fast as we can, but the 
problem that we have is, is that because it is an island, you 
can only shove so much food and water in. You are trying to fix 
emergency power issues with hospitals to sustain an entire 
hospital system that nearly collapsed. And you have to focus on 
the priorities of life safety before you can start to rebuild a 
grid. You can only shove so much into an island at initial 
stages. And you have to remember, too, that the entire air 
traffic control system was wiped out.
    So, right after the storm is over, you are having to 
carefully bring aircraft in on a manual basis. There is 30 
minutes between flights to get them in because you don't want 
to wreck C-5 Galaxies and exacerbate the problem.
    The other thing is that we quickly mission-assigned the 
Army Corps of Engineers. We recognized the problem. They are on 
the island doing the emergency power. Let us go ahead and 
mission-assign them. I worked with the Governor very 
proactively to say, ``Let's go ahead and take the initial power 
grid rebuild in mind, go ahead and start doing what we can to 
get that back up,'' because we knew it was going to be a long 
time.
    When it comes to traditional emergency management mutual 
aid, like what would work in Florida or what would work in 
Texas, first of all--and I don't mean to sound sarcastic--you 
can't drive trucks and mutual aid assistance in to Puerto Rico 
like we do in Florida or Texas. And in many cases, the private 
sector handles the entire re-grid, rebuild of Texas and 
Florida, not FEMA. This is a unique situation where the Army 
Corps is the primary builder of the re-grid because they had to 
be, and it was the only option that we really had.
    The other thing is, is that in some cases, in all fairness, 
when you do EMAC requests, a traditional mutual aid assistance 
request is a contract between Governors, not between FEMA and a 
Governor. It is between Governors. And so, with the liquidity 
issues, people are reluctant to go to Puerto Rico until there 
is 100 percent reimbursement to make sure that they would get 
paid for their services and reimbursed for their time and 
materials. That is also the other issue that we were facing 
because of the financial situation that we found Puerto Rico 
in.
    This is not a traditional disaster response. If anybody in 
the room wants to rebuild Puerto Rico to a standard to where we 
don't walk through this again, it is me.
    Mr. Carter. And I understand that. And this a government-
owned system, government monopoly-type system, and it is very 
clear they haven't kept up on the maintenance of the system. 
But they described it to me as if you are dealing with a tube 
radio.
    Mr. Long. You are exactly right. As I understand from the 
Army Corps testimony, that the average age of that power system 
is 44 years old. FEMA can't control that. I don't know who can, 
but it is a problem I am facing with working with the Governor 
to fix.
    Mr. Carter. And one of my questions, if we were able to 
figure out a way for the Corps to build a more modern, up-to-
date system, which is going to be extremely expensive, I am 
sure, one of the issues you would have to say, if they have had 
a hard time maintaining a 44-year old system, is there going to 
be money available, or is that going to be the state's problem 
to train up the technicians to keep the new system we give them 
up to date because you can't fix it because you don't know how? 
There is a lot of difference in a 44-year-old system than a 
system today.
    Mr. Long. Sure, so it is my understanding--and this is a 
great question for the Army Corps of Engineers. I do not want 
to speak on their behalf, but it is my understanding just by 
rebuilding the power grid to the CONUS, continental United 
States, building your electrical grid standards, you are 
already making tremendous improvements.
    Mr. Carter. Yes, I assumed that.
    Mr. Long. And we are going to learn a lot as a result of 
going through this, through this process. It is not an ideal 
situation. There is nothing easy about Puerto Rico from FEMA's 
perspective.
    Mr. Carter. We all have compassion for those American 
citizens in Puerto Rico.
    Mr. Long. We do. I do too. I do as well.
    Mr. Carter. Well, thank you so much. This has been very 
enlightening and pleasing to know that we have got folks that 
are being creative in Federal Government. And we like your 
creativity. We look forward to working with you. This committee 
is going to be pledging to get their job done, and we will get 
it done.
    Mr. Long. Thank you.
    Mr. Carter. The subcommittee stands adjourned. Thank you.

    [Clerk's note: The Department did not respond with answers 
to submitted questions in time for inclusion in the record. Any 
material received after printing will be on file in the 
committee office.]
</pre></body></html>
